1

nB. —
JL

<u>

IN THE SUPREME COURT OF THE UNITED STATES
2019

Supreme Court. 11 *
Fff.ri

OCT 2 3 IM
DEONTE KINWAN MCCOY

OFFICE OF THE CLERK

Petitioner,
v.

MICHIGAN,
Respondent.

On Petition for Writ of Certiorari to the Michigan Supreme Court

PETITION FOR WRIT OF CERTIORARI

BY: Deonte Kinwan McCoy #382437
In Pro-Per
St Louis Correctional Facility
8585 N. Croswell Rd.
St. Louis, MI 48880

v

QUESTIONS PRESENTED FOR REVIEW
ISSUE I
Was the Evidence Insufficient to convict Mr. McCoy of each offense. Should this court should reverse his
convictions pursuant to federal and state constitutional amendments? V, VI, XIV, Mich Const, art 1 § 17,
20, and according to People v. Hampton, 407Mich 354, (1979), and In re Winship, 397 U.S. 358 (1970).
Petitioner-Appellant Answered “yes”
Respondent-Appellee Answered “no”
ISSUE II
Was it an abused of discretion when trial court denied Mr. McCoy’s Motion for a Change of Venue due to
the trial’s publicity, along with the exclusion of minority jurors? Defendant was denied his due process
right to a fair trial under the State and Federal Constitution. U.S. Const. Amendment V, VI, XIV, Mich
Const. 1963 art 1 § 17, 20.
Petitioner-Appellant Answered “yes”
Respondent-Appellee Answered “no”
ISSUE III
Was Mr. McCoy denied his right to a fair trial? Because the trial court abused its discretion in denying his
Motion for a Mistrial, due to the improper jury selection process, were minority jurors were systematically
excluded? He was denied his right to due process under the Federal and State Constitutions. U.S. Const,
art IV, V, VI, Mich Const. 1963, art 1 § 17, and 20.
Petitioner-Appellant Answered “yes”
Respondent-Appellee Answered “no”
ISSUE IV
Was Mr. McCoy denied his right to due process of law and a trial when he was not allowed to present a
defense? Did prosecution withhold a victim impact statement, which would have impeached the credibility
of a complaining witness, and could have changed the jury’s verdict? In violation of federal and state
constitutions.
Petitioner-Appellant Answered “yes”
Respondent-Appellee Answered “no”

vi

ISSUE V
Was Mr. McCoy denied his constitutional right to the Effective Assistance of counsel? Trial counsel failed
to request that MI Crim. JI 4.5 be given to the jury. Stipulating to the defendant’s prior criminal conviction
for Felon in Possession of a firearm charge. Was Defendant denied his due process of law under the federal
and state constitutional guarantee for the effective assistance of counsel?
Petitioner-Appellant Answered “yes”
Respondent-Appellee Answered “no”
ISM E M
Was Mr. McCoy, denied a fair trial and due process? The trial court erroneously gave MI Crim. JI 4.4,
were the evidence did not support it, and MI Crim. JI 17.10, and 17.11. Were they did not include the
definition of a shotgun, and as a result it violated Defendant’s federal and state constitutional rights to a
fair trial.
Petitioner-Appellant Answered “yes”
Respondent-Appellee Answered “no”
ISSUE VII
Did the trial Judge engaged in impermissible judicial fact-finding, by erroneously ruling that there were
sufficient facts to support the scoring of offense variable’s 3,4, and 5? When the facts established at trial
did not support them beyond a reasonable doubt. Is defendant entitled to resentencing pursuant to the
federal and Michigan constitutions? U.S. Const. Amend V, VI, Mich Const. 1963 art 1 § 17, and 20.
Petitioner-Appellant Answered “yes”
Respondent-Appellee Answered “no”
ISSUE VIII
Was Mr. McCoy denied due process of law? Should he been allowed to be present during the proceeding
of his arraignment, or enter of plea? In order for the waiver of any constitutional and procedural right to
be valid, it must be knowing, and voluntarily waiver of them, through an intentional relinquishment.
Petitioner-Appellant Answered “yes”
Respondent-Appellee Answered “no”
Vll

TABLE OF CONTENTS

QUESTIONS PRESENTED FOR REVIEW

.VI, vn,

TABLE OF AUTHORITIES

IX, X, XI

REFERENCE TO OPINIONS BELOW

,XI1

STATEMENT OF JURISDICTION

Xll

CONSTITUTIONAL PROVISIONS

Xll

STATEMENT OF THE CASE

1-6

ISSUES: I-VIII, infra

CONCLUSION AND REASONS TO GRANT PETITION
Attachment’s

.6-42

42
43, 44

vin

TABLE OF AUTHORITIES
STATUTES, CONSTITUTIONS, JURY INSTRUCTIONS. AND COURT RULES
MCLA 333.74032A5
Ml
MCLA 600.8312......
15
MCLA 750.83..........
1,9,10
MCLA 750.224f.......
1,13
MCLA 750.227BA....
1
16
MCLA 762.7............
MCLA 769.34..........
34,36
.34
MCLA .777.11.........
MCLA 777.33..........
38
38
MCLA 777.34..........
38
MCLA 777.35..........
40
MCLA 777.62..........
31
MCR 2.512...............
MCR 2.613................
39
6
MCR 6.419...............
35
MCR 6.429................
in
MCR 7.208................
MCR 7.212...............
m
...7,30,31
M. Crim JI 4.4..........
.25,26,27
M. Crim Jl 4.5.........
7,30,32,33
M. Crim Jl 17.10......
M. Crim Jl 17.11......
...7,30,33
U.S.C.A. Amend IV, V,VI,XIV; Mich Const. 1963 Art 1 Sec 17, 20
8,15,21,25
CASES:
Alleyne v. United States, 570 US; 133 SCt2151, 186 L Ed 314 (2013).............

.....35,36

Brady v. Maryland, 373 US 83; 83 S. CT 1194; 10 L Ed 2d 215 (1963)............

.21,22,23

Chambers v. Mississippi, US 284; 93 S. CT 1038; 35 L. Ed 2d (1973)..............

.21,24,31

Duren v. Missouri, 439 US 357; 99 S. CT 664; 58 L Ed 579 (1979)..................

19

In Re Attorney General, 129 Mich App 128; 341 NW 2d 253 (1983)................

16

In Re Winship, 397 US 358; 90 S. CT 1068; 25 L Ed 2d 368 (1970).................

8

Irvin v. Dowd, 366 US 717; 81 S. CT 1639; 6 L Ed 2d 751 (1961)...................

15

Holmes v. South Carolina, 547 US 319; 126 S. CT 1727; 164 L Ed 503 (2006)

,21,24,31

Jackson v. Virginia, 443 US 307; 99 S. CT 2781; 61 L Ed '2d 560 (1979)........

8
IX

Miranda v. Arizona, 384 US 436; 86 S. CT 1602; 16 L Ed 694’(1966).................

29

People v. Bartlett, 231 Mich. App 139; 585 NW 2d 341 (1998)...........................

.... 26,31

People v Bearss, 463 Mich 623; 625 NW 2d 10 (2001).........................................

.21,30,31

People v. Burgenmeyer, 461 Mich 431; 606 NW 2d 645 (2000)..........................

14

People v. Chenault, 495 Mich 142; 845 NW 2d 731 (2014)..................................

22

People v. Coles, 417 Mich 523, 339 NW 2d 440 (1983).......................................

.37

People v. Cox, 268 Mich App 440; 709 NW 2d 152 (2005)..................................

20

People v. Cress, 468 Mich 678; 664 NW 2d 174 (2003).......................................

.20

People v. Daoud, 462 Mich 621; 614 NW ’2d 152 (2000).....................................

29

People v. Fetterley, 229 Mich App 511; 583 NW 2d 199 (1998)..........................

11

People v. Francisco, 474 Mich 82 (2006)..............................................................

39

People v. Frazier, 478 Mich 231; 733 NW 2d 713 (2007).....................................

.23

People v. Ginther, 390 Mich 436; 212 NW 2d 922 (1973)....................................

.23

People v. Hack, 219 Mich App 299; 556 NW 2d 187 (1996)................................

16

People v. Hampton, 407 Mich 354; 285 NW 2d 284 (1979) cert den 449 US 885

8

People v. Harrington, 194 Mich App 424; 487 NW 2d 479 (1992).......................

9

People v. Hardy, 494 Mich 430; 835 NW 2d 340 (2013)......................................

34

People v. Howard, 226 Mich App 528; 575 NW 2d 16 (1997).............................

19

People v Hubbard (After Rem), 217 Mich App 459; 552 NW 2d 493 (1996)......

18 -

People v. Jancar, 140 Mich App 222; 363 NW 2d 455 (1985)..............................

16

People v. Jendrzejewski, 455 Mich 495; 566 NW 2d 530 (1997).........................

15,16,17

People v Johnson, 293 Mich App 79; 808 NW2d 815 (2011)...............................

14

People v. Laidlaw, 169 Mich App 84; 425 NW 2d 738 (1988).............................

.25

People v. Lawhom, 320 Mich App 194; NW m_(2017)........................................

.37

People v. Lawton, 196 Mich App 341; 492 NW 2d 810 (1992)............................

9

People v. Lockett, 295 App 165; 814 NW 2d 295 (2012).....................................

38

People v. Lockridge, 498 Mich 358; 870 NW 2d 502 (2015)...............................

35,40,41

People v. Maikowksi, 385 Mich 244 (1971)..........................................................

35

People v. McKinney, 258 Mich App 157; 670 NW 2d 245 (2003).......................

30

People v. Milboum, 435 Mich 630; 461 NW 2d 1 (1990).....................................

37

People v. Mills, 450 Mich 61; 537 NW 2d 909 (1995).........................................

26,31
x

People v. Mitchell, 149 Mich App 36; 385 NW 2d 717 (1986)......................

9,24

People v. Morson, 471 Mich 248; 685 NW 2d 203 (2004).............................

34

People v. Nantelle, 215 Mich App 77; 544 NW 2d 667 (1996)......................

.25

People v. Nowack, 462 Mich 392; 614 NW 2d 78 (2000)..............................

8

People v. Pena, 224 Mich App 650; 569 NW 2d 871 (1997)..........................

9

People v. Perkins 262 Mich App 267; 686 NW 2d 237 (2004)......................

14

People v. Pitts, 222 Mich App 260; 564 NW 2d 93 (1997)............................

21,24,31

People v. Portellos, 298 Mich App 431; 827 NW 2d 725 (2012)...................

39

People v. Riddle, 467 Mich 116; 649 NW 2d 30 (2002).................................

30

People v. Richardson, 490 Mich 115; 803 NW 2d 302 (2011).......................

.26,31

People v. Schumacher, 276 Mich App 165; 740 NW 2d 534 (2007)..............

21

People v. Smith, 463 Mich 199; 615 NW 2d 1 (2000)....................................

19

People v. Solloway, 316 Mich App 174; 891 NW 2d 255 (2016)..................

.23

People v Stanaway, 446 Mich 643; 521 NW 2d 557 (1994)...........................

,25

People v. Steanhouse, 500 Mich 453: 902 NW 2d 327 (2017).......................

36

People v. Traver, 316 Mich App 588; NW 2d _ (2016)..................................

.25,31

People v. Vaughn, 491 Mich 642; 821 NW 2d 288 (2012).............................

.23

People v. Wolfe, 440 Mich 508 (1992)...........................................................

8

United States v. Cronic, 466 US 648; 104 S. CT 20139; 80 L Ed 657 (1984)

.23

Strickland v. Washington, 466 US 668; 104 S. CT 2052; 80 L Ed 2d 674 (1984)....23,27,28,29
Townsend v. Burke, 334 US 736; 68 S. CT 1252; 92 L Ed 2d 1690 (1948)......

.25

United States v. Booker, 543 US 220; 125 S. CT 738; 160 L Ed 2d 621 (2005)

.37

United States v. Crosby, 397 F 2d 103 (2005)....................................................

.40,41

United States v. Newcomb, 6 F 2d 1129 (1993).................................................

.24,31

xi

REFERENCE TO OPINIONS BELOW
The lower court denied Defendants motion on, N/A
The Court of Appeals affirmed Defendant’s conviction and sentence on, October 1, 2019 (attached).
The Michigan Supreme Court Denied Leave to Appeal on, April 29, 2020 (attached).

STATEMENT OF JURISDICTION
This Court has jurisdiction pursuant to 28 U.S.C. § 1257

CONSTITUTIONAL PROVISIONS
U.S. Const, amend. IV
The right of the people to be secure in their person, houses, papers, and effects, against the unreasonable
searches and seizures, shall not be violated, and no Warrants shall issue, but upon probable cause, supported by
Oath or affirmation, and particularly describing the place to be searched, and the persons or things to be seized.
U.S. Const, amend. V
No person shall be held to answer for a capital, or otherwise infamous crime, unless on a presentment or
indictment of a Grand Jury, except in cases arising in the land or naval forces, or in the Militia, when in actual
service in time of War or public danger; nor shall any person be subject for the same offence to be twice put in
jeopardy of life or limb; nor shall be compelled in any criminal case to be a witness against himself, nor be
deprived of life, liberty, or property, without due process of law; nor shall private property be taken for public
use, without just compensation.
U.S. Const, amend. VI
In all criminal prosecutions, the accused shall enjoy the right to a speedy and public trial, by an impartial
jury of the State and district wherein the crime shall have been committed, which district shall have been
previously ascertained by law, and to be informed of the nature and cause of the accusation; to be confronted with
the witnesses against him; to have compulsory process for obtaining witnesses in his favor, and to have the
Assistance of Counsel for his defense.
U.S. Const, amend. XIV § 1
All persons bom or naturalized in the United States, and subject to the jurisdiction thereof, are citizens of
the United States and of the State wherein they reside. No State shall make or enforce any law which shall abridge
the privileges or immunities of citizens of the United States; nor shall any State deprive any person of life, liberty,
or property, without due process of law; nor deny to any person within its jurisdiction the equal protection of the
laws.
Xll

STATEMENT OF THE CASE
On October 24, 2017, a jury convicted the Defendant-Appellant, Deonte McCoy, lower case number 1612682-FC, two counts of assault with intent to commit murder, MCLA 750.83; possession of a firearm by a felon,
MCLA 750.224f; possession of a controlled substance less than 25 grams, 3 3 3.'74032A5; 2 counts of felony
firearm, MCLA 750.227BA, and as a consequence, Mr. McCoy's sentences were enhanced as an habitual
offender, fourth degree, MCLA 769.12, before the Hon. Nick Holowka in the Lapeer County Circuit Court, (see
Judgment of Sentence, Appendix).
On December 5, 2017, Judge Holowka sentenced Mr. McCoy to 25-40 years’ imprisonment for 2 counts of
assault with intent to commit murder; 5-25 years’ imprisonment for felon in possession of a firearm; 2-15 years’
imprisonment for possession of a controlled substance less than 25 grams, and 2 years’ imprisonment for 2 counts
felony firearm, with the sentences running concurrent to each other except for the felony firearm charges which
can consecutive to the other charges. Each of the sentences imposed ran consecutive to the Genesee County
Circuit Court sentences where Mr. McCoy was on parole from the Michigan Department of Corrections, which
also precluded credit for time served. (ST, 31-34; Judgment of Sentence, Appendix)
At sentencing, Mr. McCoy objected to the scoring of offense variables ("OV") 3,4, and 5, which were denied
by Judge Holowka. (ST, 8-16). Judge Holowka ruled that Mr. McCoy’s sentencing guidelines were properly
scored at 270-900 months’ incarceration after also hearing objections presented by the prosecution. (ST, 8-16;
See PSIR, SIR, Appendix). Mr. McCoy also requested that his presentence investigation report (PSIR) be'
corrected which was adopted by "ST" refers to sentencing transcript dated December 5, 2017. Judge Holowka.
(ST 14-16). Furthermore, Judge Holowka denied Mr. McCoy's motion for a new trial because he was not provided
with a pretrial victim impact statement that was submitted by complainant John Bucy before trial. (ST, 4-6,16,17).
Prior to the start of the trial, Mr. McCoy made a motion for a change of venue due to pretrial publicity where he
argued that it would deny him a fair trial, which was also raised again at trial. (T, 133-139). In addition, during
jury selection, Mr. McCoy argued that since the jury pool did not contain any African-American jurors and they

1

were all white, it would likewise deny him a fair trial especially combined with the adverse pretrial publicity.
Judge Holowka denied both of the motions. (T, 133-139).
On October 17-24, 2017, ajury trial was held before Judge Holowka in the Lapeer County Circuit Court on
each of the above charges. The jury heard the case that arose on July 1, 2016 in Lapeer, Michigan. The testimony
at trial revealed that on that date, complainant John Bucy picked up Mr. McCoy in Flint, Michigan and they went
to Michelle Homung's home at 1290 Bowers Road. (T, 180). While at Michelle Homungs’ home, a dispute arose
over a drug debt that complainant Bucy's co-worker, Luke, had apparently owed to Mr. McCoy. According to
Michelle Homing, Mr. McCoy became upset because Luke did not appear to pay his drug debt.
(T, 337-338). Complainant Bucy testified that he and Mr. McCoy got into an argument about Luke's drug debt.
(T, 185). During the argument, complainant Bucy testified that Mr. McCoy pulled out a .38 caliber pistol and
pointed it at his head. (T, 186). After complainant Bucy settled Mr. McCoy down, they made a plan to go to
complainant Brent Kozar's house at 5101 Genesee Road, in Lapeer, Michigan for a holiday social event. (T, 188).
Before leaving, complainant Bucy told Mr. McCoy that he could not continue to possess his gun, so he drove Mr.
McCoy back to Flint, Michigan so Mr. McCoy could leave the gun at his residence. (T, 235).
On the way to complainant Kozar's home, they picked up Mr. McCoy's father, Kenneth Cureton, who was
to join them at the gathering at complainant Bucy's home. (T, 235). After they arrived at Complainant Kozar's
home, Lori Strength testified that she had sex with Mr. McCoy in an upstairs bedroom. (T, 318). After they
finished having sex, Lori Strength testified that she saw a gun fall out of Mr. McCoy's shorts and she put it on a
table in the bedroom.
Afterward, Mr. McCoy, his father, Kenneth Cureton, complainant Kozar, and complainant Bucy went to
the master bedroom of the house to consume cocaine and to be away from the children. (T, 194, 215). While in
the bedroom, Mr. McCoy allegedly shot complainant Bucy once in the torso and once in the shoulder, while one
shot missed him while he was positioned by the comer of the bed. (T, 197-198, 201, 241). Complainant Bucy
2

testified that Mr. McCoy then aimed the gun at complainant Kozar who ducked, and then fired two shots at him
that missed by inches. (T, 201-202). Complainant Bucy stated that when complainant Kozar ducked, it caused
both shots to miss him. (T, 201, 202). Complainant Bucy claimed that Mr. McCoy fired five shots total in the
bedroom. (T, 219). Complainant Kozar indicated that the first three shots were fired at complainant Bucy while
the last two were fired at him. (T, 258).
Complainant Kozar testified that after the shots were fired, he saw Mr. McCoy run out of the bedroom and
down the hallway with his father, Kenneth Cureton. (T, 264). Michelle Homung testified that she heard the
gunshots while she was walking down the stairs after leaving the bedroom. After she heard them, she ran
downstairs and out of the house with Lori Strength and the children. (T, 348-351). Lori Strength also testified that
she heard gunshots coming from the upstairs bedroom, and she ran out of the house with the children. (T, 319r
320). Lori Strength testified that she saw Mr. McCoy run out of the house and once outside, he demanded to have
a ride to Flint, Michigan and the keys to her car. (T, 349). When both Lori Strength and Michelle Homung refused
Mr. McCoy's request, he ran down the driveway. (T, 321). Michelle Homung claimed that as Mr. McCoy ran past
her, she heard another gunshot after Mr. McCoy searched a purse for car keys. (T, 350, 379).
Meanwhile, inside of the house, Complainant Kozar said that he saw complainant Bucy bleeding profusely
from 5-6 places from shots to his chest. (T, 265-266). After being shot, complainant Bucy was taken to the upstairs
bathroom by complainant Kozar, and he was then put in a car to be rushed to a hospital. (T, 228, 321). On the
way to the hospital, they passed a deputy sheriff who stopped on the side of the road. The deputy sheriff then
transported complainant Bucy to the hospital. (T, 321, 352).
Dr. Sara Omazian, an emergency room physician and who was qualified as an expert in emergency room
medicine, testified that complainant Bucy arrived at the hospital with gunshot wounds to his chest and abdomen,
with one bullet in his chest. (T, 388-395, 400). Dr. Omazian testified that if she had not inserted a chest tube in
complainant Bucy during treatment, he would have expired. (T, 396).
3

Trooper Steven Cavner testified that he received a radio call to the location and proceeded to search for
an active shooter. (T, 411). When he arrived in the area, he claimed that he saw Mr. McCoy walking up in a ditch
and then placed him under arrest. During the arrest, he patted down Mr. McCoy and did not locate any weapons
or drugs. (T, 414-416). Trooper Cavner indicated that he did not conduct a gunshot residue test on Mr. McCoy to
verify whether he ever fired a gun. (T, 428). Deputy Mariah Fredericks-Eckel of the Lapeer County Sheriffs
Department was working at the jail and she searched Mr. McCoy as part of his processing. During the pat-down
search, she claimed that she located a baggie of an apparent controlled substance in his possession. (T, 436).
Deputy Christopher Bowman indicated that once the evidence was found, he turned the packet over to Lt. Gary
Parks. (T, 462). Tyler Torbert of the Forensic Unit tested that evidence recovered from the bedroom and from Mr.
McCoy's possession. Mr. Torbert testified that he tested two samples, and he concluded that the substances
recovered tested positive for cocaine and crack cocaine. (T, 480).
Lt. Gary Parks, a crime scene technician, conducted an investigation of the shooting scene, took pictures,
received witness statements, and collected evidence. (T, 480). Lt. Parks testified that he collected the cocaine
evidence recovered both from Mr. McCoy and from, the home, and sent them to the lab for analysis. (T, 512). Lt.
Parks testified that he saw and photographed bullet holes in the bedroom that complainant Kozar showed him.
(T, 516). Lt. Parks indicated that he saw Detective Lutz recover a .38 slug from a box spring located in the
bedroom that he placed on evidence. (T, 526). Lt. Parks said that he did not -search for additional bullet holes
because he did not want to remove a wall and cause unnecessary damage to the home. Lt. Parks further testified
that a gun was not recovered after a search was conducted to find it. (T, 530532).
On cross examination, Lt. Parks indicated that testing was not done to determine whether the reddish
material located in the bedroom was actually blood. Lt. Parks testified that he was not certain whether the bullet
hole was there before the alleged shooting occurred or how old it was. (T, 576). Lt. Parks conceded that he could
not determine whether the shots were fired from the same gun because only one slug was recovered. (T, 588). Lt.
4

Parks indicated that a gunshot residue test was not conducted on Mr. McCoy and he did not possess any direct
proof that he had a gun, and he did not determine the bullet angles during the crime scene investigation. (T, 600).
The prosecution admitted a certified conviction record for the felon in possession of a firearm charge without
objection from defense counsel. (T, 618-620). The documents indicated that on March 24, 2005, Mr. McCoy was
convicted of possession with intent to deliver a controlled substance less than 50 grams in the Genesee County
Circuit Court. (T, 619).
After the prosecution rested its case, defense counsel made a motion for a directed verdict and argued that
since there was insufficient evidence for assault with intent to commit murder due to the inconsistent statements
and evidence in the prosecution’s case and the lack of intent, the two counts should have been dismissed. (T, 627).
Defense counsel argued that for felon in possession of a firearm, based on the inconsistent testimony and evidence,
poor and incomplete investigation by the police, and the lack of proof that Mr. McCoy ever possessed a firearm,
there was insufficient evidence that he ever possessed a firearm. (T, 628). Defense counsel argued that for
possession of a controlled substance less than 25 grams, there was insufficient evidence because when Mr. McCoy
was searched by Trooper Cavner when he was arrested and had his pockets turned inside out as shown in the
scout car video, a controlled substance was not found. Defense counsel argued that since the police did not recover
any drugs during the first search, but somehow drugs were later recovered by Deputy Eckel at the jail, the evidence
was not sufficient and credible enough to support the charge. (T, 6'9).
After hearing the response from the prosecution, Judge Holowka denied the motion to dismiss the charges
and case under MCR 6.419. (T, 632-637).
For Mr. McCoy's case, Steven Howard was qualified as an expert in crime scene investigation. Mr. Howard
testified that the police's investigation was not thorough because a scale or ruler was not used to determine the
trajectory and angle of the bullets which should have been done. (T, 720). Mr. Howard indicated that a bore scope
for the bullet locations should have been used to find the bullets and determine their locations. Furthermore, Mr.
t

5

I

Howard indicated that the police did not photograph everything in the bedroom where the shots were fired which
should have been done; numbers and scales were not used to determine size and scope of the bullet holes; the
exact caliber of bullet could not be determined due to the poor investigation; it could not be determined if the
bullet recovered went through a human being since there was not blood on it; and the bullet was improperly
collected because the wood around it should have also been removed to preserve it.
(T, 738-73}).
In addition, Mr. Howard testified that because the second bullet was not removed from complainant Bucy's
body, it compromised the investigation and a ballistics comparison could not be made on the evidence. (T, 740).
After closing arguments and jury instructions, defense counsel objected to M. Crim JI 4.4 being read to the jury,
and M. Crim JI 17.10 and M. Crim JI 17.11 for not including the definition of shotgun. The trial court denied
defense counsel's objections. (T, 789), After deliberations, the jury found Mr. McCoy guilty on all counts. (T,
815). Mr. McCoy appeals his convictions and sentences as of right to this Honorable Court.

6

REASONS FOR GRANTING PETITION
ISSUE I
There was insufficient evidence to convict Mr. McCoy of each offense, and this court should
reverse his convictions pursuant to federal and state constitutional amendments, V, VI, XIV,
Mich Const, art 1 § 17, 20, and according to People v. Hampton, 407 Mich 354, (1979), and
In re Winship, 397 U.S. 358 (1970).
Standard of Review:
The United States Supreme Court and the Michigan Supreme Court have determined that the Due Process
Clauses of the Fourteenth Amendment to the United States Constitution and Article 1, Sec. 14 of the Michigan
1963 Constitution require that there be sufficient evidence proven beyond a reasonable doubt to convict a
defendant. Jackson v Virginia. 443 US 307, 3 1 5;99 S. Ct 2781; 61 L Ed 2d 560 (1979), In re Winship. 397 US
358, 361-362; 90 S Ct 1068; 25 L Ed 2d 368 (1970); People v Wolfe. 440 Mich 508, 513-514; 489 NW2d 748
(1992). The sufficiency of the evidence supporting a jury verdict is reviewed de novo by this Court. People v.
Wolfe. 440 Mich 508 (1992).
Discussion:

A. The prosecution presented insufficient evidence to convict Mr. McCoy of assault with intent
to commit murder.
The evidence was insufficient to convict Mr. McCoy of two counts of assault with intent to commit murder,
MCLA 750.83, and this Court must reverse his convictions. Assault with intent to commit murder has three
elements: "(1) an assault, (2) with an actual intent to kill, and (3) which, if successful, would make the killing
murder.'’ People v Lawton, 196 Mich App 341, 350; 492 NW2d 810 (1992); MCL 750.83.
For the lessor included two charges of assault with intent to do great bodily harm less than murder, the
elements are: (1) an attempt or offer with force or violence to do corporal hurt to another, (2) coupled with an
intent to do great bodily harm less than murder. People v Pena, 224 Mich App 650, 659; 569 NW 871 (1997),
modified, 457 Mich 883 (1998). No actual physical injury is required for the elements of the crime to be
established. People v Harrington, 194 Mich App 424, 430; 487 NW2d 479 (1992). Intent to do great bodily

7

harm less than murder has been defined as an intent to do serious injury of an aggravated nature. People v
Mitchell, 149 Mich App 36, 39; 385 NW2d 717 (1986).
Here, as defense counsel argued at trial, the prosecution did not meet its burden of proof for assault with
intent to commit murder based on the above standard because the complainants' testimonies conflicted and were
too incredible to be believed, and the crime scene investigation was too incomplete and incompetent to be
trusted by the jury. During the trial as defense counsel asserted, the complainants' testimonies about where they
were positioned in the bedroom and their designations on the display diagrams so widely differed, they could
not have been believed by a rational trier of fact. (T, 775). In addition, the complainants' testimonies widely
differed about who was supposedly shot first and how many times. (T, 776). These inconsistencies were made
to be even more incredible where the bullet that went through complainant Bucy did not leave any blood on the'
bed, which it should have if the bullet actually traveled through his body. (T, 777).
The complainants' inconsistencies are even more incredible when the police did not conduct a complete
investigation where they did not take the bullets out of the walls to verify that the holes were in fact made by
bullets. The police also did not recover the bullet removed from complainant Bucy's body which could have
supported a claim that the shots were fired from the same gun. (T, 784). Moreover, the police's crime scene
investigation did not corroborate the complainants' testimonies because the bullet trajectories were never
determined, which would have established the position of the guns. The police also did not perform a gunshot
residue test on Mr. McCoy which would have supported or not, whether he fired a gun. Based on the
inconsistencies in the complainants' testimonies and the very poor crime scene investigation work by the police,
the evidence was insufficient to convict Mr. McCoy of assault with intent to commit murder and the
corresponding charges of felony firearm, even when the evidence is taken in a light most favorable to the
prosecution.

8

Alternatively, if the facts supported that Mr. McCoy assaulted the complainants, the prosecution only
provided enough evidence to establish the two charges of assault with intent commit great bodily harm less than
•murder, MCLA 750.83, because there was insufficient evidence of intent to commit murder. If, arguably, Mr.
McCoy shot at complainant Bucy at such close range, he could have hit him all three times with his shots instead
of missing once if he really intended to kill him. Furthermore, if he had possessed the intent to kill, he would have
shot complainant Bucy twice in the head at close range which would have demonstrated his real intent to kill him.
Here, complainant Bucy's gunshot wounds to his torso and upper shoulder showed an intent to do great bodily
harm rather than an intent to kill.
When Mr. McCoy supposedly shot at complainant Kozdr and missed twice at very close range, he showed
that he was not intending to kill him, but only to scare him. If Mr. McCoy really intended to kill complainant
Kozar, he would not have missed him with both shots at such very close range. If the police had conducted a
thorough investigation, it would have shown that Mr. McCoy's shots were designed to scare complainant Kozar,
but not kill him. As a result, since Mr. McCoy’s intent was to do great bodily harm to the complainants and not
to kill them, his convictions must be reversed, and this Court must order that convictions for assault with intent
to do great bodily harm less than murder be entered.

B. The prosecution presented insufficient evidence to convict Mr. McCoy of possession of a
controlled substance less than 25 grams.
The prosecution's evidence was insufficient to convict, Mr. McCoy of possession of a controlled substance
less than 25grams, and as a result, this Court must reverse his conviction. MCL 333.7403(2)(a)(v) prohibits the
knowing or intentional possession of a mixture containing an amount of cocaine less than 25 grams. The term
"possession" includes both actual and consecutive possession. People v Fetterlev. 229 Mich App 511,515; 583
NW2d 199 (1998). The essential question is whether the defendant had dominion or control over the controlled
substance. A person's presence at the place where the drugs are found is not sufficient, by itself, to prove
constructive possession; some additional link between the defendant and the contraband must be shown.
9

However, circumstantial evidence and reasonable inferences arising from the evidence are sufficient to establish
possession. [Id (citations omitted).]
Here, the prosecution's evidence was insufficient to convict Mr. McCoy of possession of a controlled
substance less than 25 grams because immediately after he was arrested by Trooper Cavner, he was searched
for drugs and guns. During that search, Trooper Cavner did not find any drugs even with Mr. McCoy’s pockets
tumed-out as reflected in the scout car video. (T, 629). Surprisingly, Deputy Eckel found the controlled
substance in Mr. McCoy's possession after he was searched at the jail during the second search of his clothing.
Since the controlled substance was not found in Mr. McCoy's possession during the first search of his clothing
which caused Deputy Eckel's testimony to be seriously questionable, there was insufficient evidence for this
jury to convict Mr. McCoy of the offense.
In addition, if the conviction for his charge was based on the drugs found in the bedroom on the house, that
charge was not proven with sufficient evidence beyond a reasonable doubt. The evidence at trial indicated that
individuals who in the bedroom just before the shooting occurred consumed cocaine. But, the evidence did not
sufficiently establish who brought the cocaine to the bedroom and who actually possessed it to support a
conviction including for Mr. McCoy.
Lastly, during Deputy Eckel's testimony, although Mr. McCoy was mentioned by name during her
testimony, the prosecution never had her identify Mr. McCoy in court and had her identification reflected on
the record to establish that he was in fact the same person that she searched. (T, 434-438). Without this positive
identification that Mr. McCoy was actually the person that Deputy Eckel searched, the evidence as insufficient
to establish that he was actually in possession of the controlled substance. This Court must reverse Mr.
McCoy's conviction for possession of a controlled substance less than 25 grams and his corresponding felony
firearm charge.

10

C The prosecution presented insufficient evidence to convict Mr. McCoy offeion in possession
of a firearm.
The prosecution presented insufficient evidence to convict Mr. McCoy of felon in possession of a firearm, as
a result, this Court must reverse his conviction. The pertinent part of MCLA 750.224f states:
(2) A person convicted of a specified felony shall not possess, use, transport, sell, purchase, carry, ship,
receive, or distribute a firearm in this state until of the following circumstances exist:
(a) The expiration of 5 years after all of the following circumstances exist:
(i) The person has paid all fines imposed for the violation.
(ii) The person has served all terns of imprisonment imposed for the violation.
(iii) The person has successfully completed all conditions of probation or parole imposed for the violation.
(b) The person's right to possess, use, transport, sell, purchase, carry, ship, receive, or distribute a firearm has
been restored under section 4 of 1927 PA 372, MCL 28.424.
Since Mr. McCoy's prior conviction was a delivery, manufacture of a controlled substances less than 50 grams
according to the certified record introduced a trial, it would constitute a "specified felony":
(10) As used in subsections (2) and (4), "specified felony" means a felony in which I or more of the following
circumstances exist:
(a)
An element of that felony is the use, attempted use, or threatened use of physical force against the person
or property of another, or that by its nature, involves a substantial risk that physical force against the person or
property of another maybe used in the course of committing the offense.
(b)
An element of that felony is the unlawful manufacture, possession, importation, exportation, distribution,
or dispensing of a controlled substance.
In order to prove felon in possession of a firearm, the prosecution must establish that the defendant
possessed a firearm while ineligible to do so under MCL 750.224f as a result of a prior felony conviction. MCL
750.224f; see also People v Perkins. 262 Mich App 267, 269-270; 686 NW2d 237 (2004), abrogated in part on
other grounds by People v Smith-Anthony, 494 Mich 669 (2013). Possession of a firearm "may be actual or
constructive and may be proved by circumstantial evidence." People v Bureenmever. 461 Mich 43 1, 437; 606
NW2d 645 (2000), reh den 461 Mich 1289 (2000). "[A] defendant has constructive possession of a firearm if the
location of the weapon is known and it is reasonably accessible to the defendant." People v Johnson. 293 Mich
App 79, 83; 808 NW2d 815 (2011).
11

At trial, the prosecution admitted a prior certified conviction record from Genesee County that
supposedly established that Deonte McCoy had previously been convicted of controlled substance, delivery less
than 50 grams on March 24, 2005. (T, 618-619). However, to establish that the conviction record was in fact
Mr. McCoy and that he was the one who was actually convicted of the offense, the prosecution failed to establish
an identification and connection between the conviction record and Mr. McCoy. Simply introducing a conviction
record with Mr. McCoy’s name on it was insufficient to establish that Mr. McCoy was actually the person who
was convicted. The record could have contained a wrong name, a different Deonte McCoy could have been
convicted in Genesee County, or someone else's alias could have been used. Without a substantiation and
connection to Mr. McCoy, and further proof that he was the person who was actually convicted of the crime,
the prosecution's evidence was insufficient to convict Mr. McCoy of felon in possession of a firearm and the
corresponding charge of felony firearm.
Even though Mr. McCoy stipulated to the admission of the prior conviction record, it did not include
an agreement that he was convicted of the offense. The stipulation only pertained to the contents on the record
which did not include an identification of Mr. McCoy as the one who committed the offense and had that
conviction entered against him. As a result, this Court must reverse his convictions for felon in possession of a
firearm and the corresponding felony firearm charge.
When a defendant challenges the sufficiency of the evidence in a criminal case, this Court must view the
evidence in a light most favorable to the prosecution to determine whether it would warrant a reasonable juror
or trier of fact to find guilt beyond a reasonable doubt. People v. Nowackz, 462 Mich 392, 399; 614 NW 2d 78
(2000); People v. Hampton. 407 Mich 354, 366; 285 NW 2d 284 (1979), cert den. 449 US 885 (1980). This
standard was articulated by the United States Supreme Court in Jackson v. Virginia, 443 US 307; 99 S Ct 2781;
61 L Ed 2d 560 (1979). According to Jackson, the sufficient evidence requirement is a part of every criminal
defendant's due process rights. It is an attempt to give 'concrete substance' to those rights, by precluding
12

irrational jury verdicts. Jackson, supra, 443 US 315. The Jackson Court explained The fin re Winship. 397 US
358; 90 S. CT 1068; 25 L Ed 2d 368 (1970)] doctrine [requiring proof of guilt beyond a reasonable doubt]
requires more than simply a trial ritual. A doctrine establishing so fundamental a substantive constitutional
standard must also require that the factfinder will rationally apply that standard to the facts in evidence. A
"reasonable doubt," at a minimum, is one based upon "reason." Yet a properly instructed jury may occasionally
convict even when it can be said that no rational trier of fact could find guilt beyond a reasonable doubt. [443
US 316-317]. see People v. Wolfe. 440 Mich 508, 514-515 (1992).

13

ISSUE II
The trial court abused its discretion when it denied Mr. McCoy’s Motion for a Change of
Venue due to the trial’s publicity, along with the exclusion of minority jurors. Defendant was
denied his due process right to a fair trial under the State and Federal Constitution. U.S.
Const. Amendment V, VI, XIV, Mich Const. 1963 art 1 § 17, 20.
Standard of Review:
"The right to a jury trial guarantees to the criminally accused a fair trial by a panel of impartial, 'indifferent*
jurors." Irvin v Dowd. 366 US 717, 722; 81 S Ct 1639; 6 L. Ed 2d 751 (1961); People vJendrzeiewski. 455 Mich
495, 500; 566 NW2d 530 (1997). The United States and Michigan Constitution’s guarantee the defendant the
right to a fair trial and due process of law. U.S. Const., Art Mich Const 1963, Art 1, sec. 17, 20.
Generally, criminal defendants should be tried in the county where the offenses charged allegedly occurred.
Id. at 499; MCL 600.8312; Jendrzejewski, supra at 499. This Court reviews the grant or denial of a motion for
change of venue for an abuse of discretion, Jendrzejewski. 455 Mich 495 at 501.
Discussion:
Under Michigan law, a trial court has discretion to change venue on motion by either party. MCL 762.7.
The moving party has the burden on appeal to show an abuse of discretion. People v Bailey, 169 Mich Add 492
0988): People v Clay, 95 Mich Add 152 (1980). The trial court can defer decision on the motion until there has been
an attempt to seat an impartial jury. People v Nixon. 114 Mich Add 233 0982).
In People v Jancar. 140 Mich App 222.229-230 0985). the Court stated:
Moreover, the existence of pretrial publicity does not itself require a change of
venue. Murphy v Florida. 421 US 794: 95 S Ct 2031: 44 L Ed 2d 589 (1975). If
jurors are able to set aside their impressions or opinions and render a verdict based
upon the evidence adduced at trial, a change of venue is not necessary. People v
Prast (On Reh), 114 Mich App 469.477: 319 NW2d 627 (T982). A change of venue
is proper only where there is a finding of a strong community feeling or a bitter
prejudice towards the defendant. Id"

14

This standard is essentially the same as that applied in Irvin, supra. Michigan courts have dealt with change of
venue issues in several cases which have engendered substantial publicity. See, for example, Bailey, supra:
People v Haggart. 142 Mich Add 330 (1985): People v Collins. 43 Mich Add 259 (1972); People v Hart. 161 Mich App 630
0982); People v DeLisle. 202 Mich Add 658 (1993).
Here, defense counsel argued in the trial court that since there were media articles published about the trial
and the prosecution gave interviews to the media about the case, it irreparably prejudiced Mr. McCoy's ability
to receive a fair trial. Defense counsel pointed-out during jury selection that the media coverage was extensive,
and that most potential jurors had seen the published article about the trial in the media just prior to the start of
it. (T, 133). In addition, defense counsel asserted that because the published media article included Mr. McCoy's
prior record, it irreparably prejudiced his ability to receive a fair trial in Lapeer County. This, coupled with the
lack of a cross section of the community where African-Americans were not contained in the juror pool, it
irreparably impacted Mr. McCoy's right to receive a fair trial and he did not receive one. Thus, the trial judge
abused his discretion by not ordering a change of venue. In addition, a second standard must be met to change
venue. "Consideration of the quality and quantum of pretrial publicity, standing alone, is not sufficient to require
a change of venue." Jendrzejewski, supra at 517. This Court "must also closely examine the entire voir dire to
determine if an impartial jury was impaneled. " Id. To hold that the existence of any preconceived notion as to
the guilt or innocence of an accused, without more, is sufficient to rebut the presumption of a prospective juror's
impartiality would establish an impossible standard. See Jendrzejewski, supra at 517. It is sufficient if the jurors
can lay aside their impression or opinion and render a verdict based on the evidence presented at trial. Id. "The
value protected by the Fourteenth Amendment is lack of partiality, not an empty mind." Id. at 519.
As Defendants’ defense counsel pointed out during his arguments, there were a sufficient number ofjurors
who had pre-exposure to the case to warrant a change of venue. Since according to defense counsel that "no less

15

than probably half of the jury pool by the time we had reached our jury that raised the issue they had seen that",
that very high number of jurors pre-exposed to the case should have warranted a change of venue.
The existence of pretrial publicity alone does not require a change of venue. People v Jancar. 140 Mich App
222, 229-230; 363 NW2d 455 (1985). The "defendant has the burden of proving either (1) strong community
feelings against him and that the publicity is so extensive that jurors could not remain impartial when exposed
to it, or (2) that the jury was actually prejudiced or the atmosphere surrounding the trial was such as would create
a probability of prejudice." People v Hack. 219 Mich App 299, 31 1; 556 NW2d 187 (1996). Two approaches
have been used to determine whether the failure to grant a change of venue is an abuse of discretion. See
Jendrzejewski, supra at 500-501. "Community prejudice amounting to actual bias has been found where there
was extensive highly inflammatory pretrial publicity that saturated the community to such an extent that the
entire jury pool was tainted, and, much more infrequently, community bias has been implied from a high
percentage of the venire who admit to a disqualifying prejudice." Id.
This Court must determine whether the effect of pretrial publicity on a relatively small jury pool was such
"unrelenting prejudicial pretrial publicity [that] the entire community will be presumed both exposed to the
publicity and prejudiced by it." Jendrzejewski, supra at 501. Moreover, we must distinguish between largely
factual publicity and that which was invidious or inflammatory. Id. at 504.
Mich Const 1963, Art 1, sec. 17, 20. Generally, criminal defendants should be tried in the county where
the offenses charged allegedly occurred. Id. at 499; MCL 600.8312; Jendrzejewski, supra at 499. However, a
trial court can grant a change of venue for good cause. MCL 762.7. "Good cause" concerns the ability to obtain
a fair trial in the county where the action is brought. In re Attorney General, 129 Mich App 128,135; 341 NW2d
253 (1983). A court may, in special circumstances where justice demands or statute provides, change venue to
another county. MCL 762.7; MSA 28.850; Jendrzejewski, supra at 499-500.

16

ISSUE III
Mr. McCoy was denied his right to a fair trial because the trial court abused its discretion in
denying Motion for a Mistrial. Due to the improper jury selection process, were minority
jurors were systematically excluded. He was denied his right to due process under the
Federal and State Constitutions. U.S. Const, art IV, V, VI, Mich Const. 1963, art 1 § 17, and
20.
Standard of Review:
Defendant preserved this issue for appellate review when his defense counsel objected to the racial
composition of the jury just before the preliminary instructions were given to them.
"To establish a prima facie violation of the fair cross-section requirement, a defendant must show that a
distinctive group was underrepresented in his venire or jury pool, and that the underrepresentation was the result
of systemic exclusion of the group from the jury selection process." People v Smith. 463 Mich 199, 203; 615
NW2d I (2000); see also Duren v Missouri. 439 US 357, 364; 99 S. CT 664; 58 L Ed 2d 579 (1979).
Discussion:
Since the jury panel did not include African-American jurors to present a cross-section of the community,
Mr. McCoy was denied a fair trial and due process of law under the Federal and state Constitutions. US. Const
Art V, VI, XIV, Mich Const 1963 Art 1, § 17, 20, Mr. McCoy asserts that he was deprived of his constitutional
right to an impartial jury drawn from a fair cross section of the community because of the systematic exclusion
of minority jurors in the county circuit court system. A defendant establishes a prima facie violation of the faircross-section requirement by showing: (1) that the group alleged to be excluded is a 'distinctive' group in the
community; (2) that the representation of this group in venires from which juries are selected is not fair and
reasonable in relation to the number of such persons in the community; and (3) that this underrepresentation is
due to systematic exclusion of the group in the jury-selection process. People v Howard, 226 Mich App 528, 533;
575 NW2d 16 (1997). Duren Missouri, 439 US 357, 364; 99 S Ct 664, 668; 58 L Ed 579 (1979).

17

Here, defense counsel argued that the jury pool did not contain any African-Americans or minority
citizens at all, and that the jury was not one of Mr. McCoy’s peers. Defense counsel further pointed-out that the
jury panel only contained Caucasian-Americans that could not be fair and impartial even though they were
questioned during voir dire about being fair to Mr. McCoy. (T, 135).
The trial court erred by denying Mr. McCoy's motion because he did present a prima facie case in that
for (1) above, African-American citizens would qualify as a distinctive group in the community; (2) that even
though Lapeer County apparently does not contain a large number of minority residents, it still should have had
a small percentage of minority jurors in the jury pool. Based on the complete lack of minority jurors from the
panel, the system employed by Lapeer County was not fair and reasonable to have minority jurors appear as
jurors. For (3) above, since there was not a single minority juror on the panel, it must have been from a systematic
exclusion of African-Americans in the jury-selection process. If Lapeer County had a fair and reasonable system,
then there certainly would have been some non-Caucasian jurors on the panel to have a fair cross section of the
community represented on the jury panel.

18

ISSUE IV
Mr. McCoy was denied his right to due process of law and a trial when he was not allowed
to present a defense. The prosecution withheld a victim impact statement, which would have
impeached the credibility of a complaining witness, that could have changed the jury’s
verdict. In violation of federal and state constitutions.
Standard of Review:
This Court reviews for an abuse of discretion a trial court's ruling on a motion for new trial. People v Cress.
468 Mich 678, 691; 664 NW2d 174 (2003). In criminal cases, a new trial may be granted "on any ground that
would support appellate reversal of the conviction or because the trial court believes that the verdict has resulted
in a miscarriage of justice." MCR 6.431(B); see also MCL 770.1 ("when it appears to the court that justice has
not been done"). This Court reviews due process claims, such as allegations of a Brady violation, de novo. People
v Schumacher. 276 Mich App 165,176; 740 NW2d 534 (2007); Bradv v Maryland. 373 US 83; 83 S Ct 1194; 10
LEd 2d 215 (1963).
Discussion:
Federal and Michigan Constitution’s guarantee that a defendant receives a fair trial and to present a defense.
US Const Ams V, VI, XIV; Mich Const 1963, Art 1, Sec 17, 20. Few rights are more fundamental than that of an
accused to present evidence in his or her own defense. Chambers v Mississippi. 410 US 284, 302; 93'S. CT 1038;
35 L Ed 2d 297 (1973). "Whether rooted directly in the Due Process Clause of the Fourteenth Amendment or in
the Compulsory Process or Confrontation clauses of the Sixth Amendment, the Constitution guarantees criminal
defendants a meaningful opportunity to present a complete defense." Holmes v South Carolina. 547 US 319, 324;
126 S. CT 1727; 164 L Ed 2d 503 (2006) (internal quotation marks and citations omitted). In Bradv v Maryland.
373 US 83, 87; 83 S. CT 1194; 10 L Ed 2d 215 (1963),
The United States Supreme Court held that "the suppression by the prosecution of evidence favorable to an
accused upon request violates due process where the evidence is material either to guilt or to punishment,
irrespective of the good faith or bad faith of the prosecution." To establish a Brady violation, a defendant must
19

prove that: (1) the prosecution suppressed evidence, (2) the evidence was favorable to the accused, and (3) viewed
in its totality, the evidence is material. People v Chenault. 495 Mich 142,155; 845 NW2d 731 (2014). "Evidence
is favorable to the defense when it is either exculpatory or impeaching." Id. at 150. "To establish materiality, a
defendant must show that there is a reasonable probability that, had the evidence been disclosed to the defense,
the result of the proceeding would have been different." Id. (quotation marks and citation omitted).
Mr. McCoy preserved his issue for appellate review when he filed a motion for a new trial in the trial court
which was denied on December 5, 2017. (ST, 4-6, 16-17). In order to preserve an issue for appellate review on
the basis of the prosecution's suppression of evidence, a defendant must move for a new trial or for relief from
judgement in the trial court. People v Cox. 268 Mich App 440, 448; 709 NW2d 152 (2005). Defendant argued in
his motion for a new trial that the prosecution denied him a fair trial and due process when it did not provide him
with a victim impact statement that was prepared by complainant John Bucy on July 12, 2016. (ST, 4-6, 17; see
statement-PSIR, 7). Since complainant Bucy's credibility and truthfulness were a very important aspect of the
prosecution’s case and the jury needed to believe him to find Mr. McCoy guilty, the trial court erred by not
granting him a new trial especially where the statement offered a conflicting statement. (ST, 4-5).
A person cannot be deprived of life, liberty, or property without due process of law. US Const, Ams V,
XIV*, Const 1963, Art 1, sec. 17; People v Bears. 463 Mich 623, 629; 625 NW2d 10 (2001). "What process
is due in a particular proceeding depends upon the nature of the proceeding, the risks and costs involved, and
the private and governmental interests that might be affected." People v Pitts. 222 Mich App 260, 263; 564
NW2d 93 (1997).
Mr. McCoy argued in his motion for a new trial that the prosecution denied him a fair trial and due process
when it did not provide him with a victim impact statement that was prepared by complainant John Bucy on July
12,2016. (ST, 4-6,17; see statement-PSIR, 7). Since complainant Bucy's credibility and truthfulness were a very
important aspect of the prosecution's case and the jury needed to believe him to find Mr. McCoy guilty, the trial
20

court erred by not granting him a new trial especially where the statement offered a conflicting statement. (ST,
4-5). The trial court erred when it did not grant Mr. McCoy a new trial because it was apparent that the
prosecution withheld the evidence when it knew it should have provided it to Mr.
McCoy prior to Defense counsel pointed-out that prior counsel for Mr. McCoy did not receive that statement
and neither did he before trial. (ST, 5). Thus, under (1) above, Mr. McCoy showed that the prosecution withheld
evidence. Under (2) above, the evidence was favorable to Mr. McCoy because complainant Bucy's statement
conflicted with facts that he testified to at trial and the statement would have been used to impeach his credibility.
In the statement, complainant Bucy indicated that he lost a lot blood which conflicted the scene evidence where
very little, if not any blood was found. Furthermore, complainant Bucy indicated that Mr. McCoy consumed
massive amounts of cocaine and alcohol which was not adequately established at trial. Complainant Bucy also
claimed that Mr. McCoy reloaded the gun which was not supported by the trial testimony. (PSIR, 7). Under (3)
above, complainant Bucy's statement was material since it would have been used to impeach his credibility.
Since the jury had to assess complainant Bucy's credibility and trustworthiness, and must have found him
credible to find Mr. McCoy guilty, the statement if it was available would have been used to discredit him. Once
the jury found that complainant Bucy's testimony could not be believed, they would have acquitted Mr. McCoy.
Since Mr. McCoy established a Brady violation as a result of the withheld statement that would have changed
the outcome of the trial, the trial court erred by not granting a new trial.

21

ISSUE V
Mr. McCoy was denied his constitutional right to the effective assistance of counsel, when
his trial counsel failed to request that MI Crinu JI 4.5 be given to the jury. Stipulating to the
defendant’s prior criminal conviction for Felon in Possession of a firearm charge.
Standard of Review:
The Sixth Amendment guarantees a defendant the right to the effective assistance of counsel. People v
Vaughn 491 Mich 642,669; 821 NW2d 288 (2012). Most claims of ineffective assistance of counsel are analyzed
under the test articulated by the United States Supreme Court in Strickland v Washington, 466 US 668; 104 S Ct
2052; 80 L Ed 2d 674(1984).
Discussion:
"Generally, a trial court's findings of fact, if any, are reviewed for clear error, and questions of law are
reviewed de novo." Id at 188. "When no Ginther hearing has been conducted, our review of the defendant's claim
of ineffective assistance of counsel is limited to mistakes that are apparent on the record." Id; People v Ginther,
390 Mich 436; 212 NW2d 922 (1973). "Whether a defendant has been denied the effective assistance of counsel
is a mixed question of fact and constitutional law." People v Holloway. 316 Mich App 174,187; 891 NW2d255
(2016).
In order to establish a claim of ineffective assistance of counsel, a defendant must show that counsel's
performance fell below an objective standard of reasonableness and that, but for defense counsel's error, there
was a reasonable probability that the result of the proceeding would have been different. People v Mitchell. 454
Mich 145,157-158; 560 NW2d 600 (1997); People v Stanawav. 446 Mich 643, 687-688; 521 NW2d 557 (1994).
A defendant "must affirmatively demonstrate that counsel's performance was objectively unreasonable and so
prejudicial as to deprive him of a fair trial." Mitchell, supra. A motion for new trial or an evidentiary hearing is
a prerequisite to appellate review unless the record contains sufficient details relating to the alleged deficiencies
in representation to allow the appellate courts to adequately analyze the issue. People v Laidlaw, 169 Mich 4pp
22

84,95; 425 NW2d738 (1988). Where defendant fails to move for a new trial or evidentiary hearing, the appellate
court review is limited to errors that are apparent from the trial court record. People v Nantelle, 215 Mich App
77, 87; 544 NW2d 667(1996).
The Supreme Court has identified three additional "rare situations" in which counsel's performance is so
deficient that prejudice is presumed. Id. Prejudice will be presumed where (1) there was the complete denial of
counsel at a critical stage of (2) counsel entirely failed to subject the prosecution's case to meaningful adversarial
testing, or (3) counsel is called on to render assistance under circumstances where competent counsel very likely
could not. United States v Cronic. 466 US 648; 659-660; 104 S Ct 2039; 80 L Ed 2d 657 (1984). A person
cannot be deprived of life, liberty, or property without due process of law. US Const, Ams V, XIV*, Const 1963,
Art 1, sec. 17; People v Bears. 463 Mich 623, 629; 625 NW2d 10 (2001). "What process is due in a particular
proceeding depends upon the nature of the proceeding, the risks and costs involved, and the private and
governmental interests that might be affected." People v Pitts. 222 Mich App 260, 263; 564 NW2d93 (1997).
The Federal appellate courts review the charge to the jury as a whole to determine whether it fairly and
adequately submitted the issues and the law to the jury. United States v. Newcomb. 6 F 3d 1129,1132 (1993).
Furthermore, the Federal and Michigan Constitution’s guarantee that a defendant receives a fair trial and to
present a defense. US Const Ams V, VI, XIV; Mich Const 1963, Art 1, Sec 17, 20. Few rights are more
fundamental than that of an accused to present evidence in his or her own defense. Chambers v Mississippi. 410
US 284, 302; 93 S Ct 1038; 35 L Ed 2d 297 (1973). "Whether rooted directly in the Due Process Clause of the
Fourteenth Amendment or in the Compulsory Process or Confrontation clauses of the Sixth Amendment, the
Constitution guarantees criminal defendants a meaningful opportunity to present a complete defense." Holmes v
South Carolina. 547 US 319,324; 126 S Ct 1727; 164 L Ed 2d 503 (2006) (internal quotation marks and citations
omitted).

23

A. M Crim JI 4.5 "Prior Inconsistent Statement Used to Impeach a Witnessn should have been
given to the jury.
When Mr. McCoy's trial counsel did not object or request to have jury instruction, M Crim JI 4.5, "Prior
Inconsistent Statement Used to Impeach a Witness" given to the jury so they could have properly applied the
correct standards to assess the evidence, credibility of the witnesses and issues in the case, he *was denied
effective assistance of counsel guaranteed to him under the Sixth Amendment of the Federal Constitution. US
Constitution, Amend VI, XIV; Mich Const 1963, Art 1, Sec. 17, 20.MCR 2.512(D)(2) requires that the Model
Criminal Jury Instructions be used when they (1) are applicable, (2) accurately state the applicable law, and (3)
are requested by a party. People v Traver, 316 Mich App 588, NW2d (2016) (Docket No. 325883); slip op at 5.
Even though the trial court was not required to use the model jury instructions, a defendant is still entitled "to
have a properly instructed jury consider the evidence against him." People v Mills. 450 Mich 61, 80-81; 537
NW2d 909 (1995). 'Jury instructions should be considered as a whole when reviewed for error requiring reversal.
People v Richardson. 490 Mich 115, 119; 803 NW2d 302 (2011). The trial court's instructions to the jury must
include all elements for each offense charged. People v. Bartlett, 231 Mich App 139,143; 585NW2d341 (1998).
The instructions also must not omit material issues, defenses, or theories that are supported by the evidence. Id.
"Even if somewhat imperfect, instructions do not create error if they fairly present to the jury the issues tried
and sufficiently protect defendant's rights." Id. at 143-144. M Crim JI 4.5 "Prior Inconsistent Statement Used to
Impeach a Witness" should have been given to the jury because throughout prosecution's case, its witnesses
testified inconsistently during cross examination.
M Crim JI 4.5 states:
You have heard evidence that, before the trial, [a witness /witnesses] made [a statement/statements] that
may be inconsistent with [her] testimony her in court.
24

(1) You may consider an inconsistent made before the trial [only] to help you decide how
believable the [witness'/witnesses'] testimony was when testifying here in court.
(2) If the earlier statement was made under oath, then you may also consider the earlier statement
as evidence of the truth of whatever the [witness/witnesses] said in the earlier
[statement/statements] when determining the facts of this case, [emphasis added].
During the trial, complainant Bucy contradicted his testimony from the preliminary examination where he
testified that Mr. McCoy pointed the gun at complainant Kozar first. (T, 226-227). In addition, Deputy Eckel
contradicted her preliminary examination testimony at trial when she testified that Mr. McCoy had not been
searched before he was taken to the jail, whereas at trial she testified that the road patrol deputies had searched
Mr. McCoy. (T, 450-451).
Mr. McCoy was denied effective assistance of counsel when his defense counsel failed to object or request
that the above omitted instruction, M Crim JI 4.5, be provided to the jury where it clearly would have benefited
Mr. McCoy, addressed his issues, defenses and evidence as argued above. The first prong under Strickland,
supra was met where trial counsel's performance fell below an objective standard of reasonableness when M
Crim JI 4.5 should have been at least requested to be read to the jury since there were witnesses at trial who
provided inconsistent testimony that impacted their credibility.
Defense counsel's omission met the second prong of Strickland, supra and deprived Mr. McCoy of a fair
trial and reliable verdict because had the jury been given the instruction and applied it to his benefit, there was
a very strong likelihood that they could have found reasonable doubt in the prosecution’s case based on their
assessment of the credibility of the witnesses. The jury very likely could have found that the prosecution's
witnesses and evidence were not credible, and evaluated the evidence differently.
Thus, this Court must reverse Mr. McCoy's convictions because the error was plain from the trial record.

B. Mr. McCoy was denied effective assistance of counsel when defense counsel did not
stipulate to his prior felony conviction of possession with intent to deliver less than the 50
grams of a controlled substance.

25

In this case, Mr. McCoy was denied his right to a fair trial, due process and effective assistance of counsel
when his defense counsel did not object to the admission of his prior felony conviction of possession with intent
to deliver less than 50 grams of a controlled substance. Defense counsel was deficient under the first prong of
Strickland, supra, because he should have stipulated to the prior felony conviction since the conviction record
was not in dispute, where he did not object to the admission of the record. (T, 618). By stipulating to the record,
the jury would not have heard that he was previously convicted of the offense and it would have protected Mr.
McCoy from a very negative implication that was inherent in the offense.
Defense counsel's deficient performance prejudiced Mr. McCoy under the second prong of Strickland, supra
because the facts surrounding his trial involved a drug deal with the complainants. When the jury was able to
hear that he was previously convicted of a similar offense, they were likely to reach the conclusion that he was
guilty in this case, especially for the possession of a controlled substance less than 25 grams’ charge, and not be
able to separate the two cases and disregard any negative implication from the prior conviction.
As a result, since the two conditions in Strickland, supra were met and the error was plain from the trial
court record, this Court must reverse Mr. McCoy's convictions.

C. Mr. McCoy was denied effective assistance ofcounsel when his defense counsel did not object
to an incriminating in-custody statement made by him without Miranda warnings.
Mr. McCoy was denied effective assistance of counsel, fair trial and due process of law when his defense
counsel failed to object to Deputy Eckel's testimony where Mr. McCoy admitted to her that the substance that
she recovered from him was heroin. (T, 436). "The United States Constitution and the Michigan Constitution
both prohibit 'compelled' self-incrimination." US Const, Am V; Const 1963, Art 1, Sec 17. Before a suspect is
subject to custodial interrogation, the suspect must be given the now familiar Miranda warnings; specifically,
the suspect must be informed "(1) that he has the right to remain silent, (2) that anything he says can and will
be used against him in court, (3) that he has a right to the presence of an attorney during any questioning, and
26

(4) that if he cannot afford an attorney one will be appointed for him." People v Daoud. 462 Mich 621, 625 n 1;
614 NW2d 152 (2000). "When a suspect has been afforded Miranda warnings and affirmatively waives his
Miranda rights, subsequent incriminating statements may be used against him," provided that the waiver of
rights is voluntary, knowing, and intelligent... Miranda v Arizona, 384 US 436, 473-474; 86 S. CT 1602; 16 L
Ed 2d 694(1966).
Here, defense counsel was deficient under the first prong of Strickland, supra, because he should have
objected to the admission of Mr. McCoy's statement where he was clearly under arrest and in custody when he
was searched by Deputy Eckel at the jail. Deputy Eckel's testimony was damaging to Mr. McCoy because she
indicated that Mr. McCoy admitted to her that the drug that she allegedly found on him was a controlled
substance, which was an element of the crime of possession of a controlled substance that had to be established
by the prosecution. Defense counsel's deficient performance met the second prong of Strickland, supra because
it affected the outcome of the charge because Deputy Eckel’s testimony established that the substance was a
controlled substance, without the need for the prosecution to prove that element beyond a reasonable doubt.
As a result, this Court must reverse Mr. McCoy's conviction for possession of a controlled substance Jess
than 25 grams and remand for a new trial since the error was plainly ascertained from the trial court record.
Thus, this Court must reverse Mr. McCoy convictions, order a new trial or remand for an evidentiary hearing
on this issue because Mr. McCoy was denied effective assistance of counsel as guaranteed by the Federal and
Michigan Constitutions. US Const. Amend XI, XIV; Mich Const 1963, Art 1, Sect. 17, 20.

. 27

ISSUE VI
Mr. McCoy, was denied a fair trial and due process when the trial court erroneously gave
jury instruction MI Crim. JI 4.4, were the evidence did not support it, and MI Crim. JI 17.10,
and 17.11 were they did not include the definition of a shotgun, and as a result it violated
Defendant’s federal and state constitutional rights to a fair trial.
Standard of Review:
Defendant preserved this issue for appellate review when he objected to the trial court providing M Crim.
JI 4.4 to the jury, and 17.10 and 17.11 without the definition of shotgun. (T, 761-766). A trial court's
"determination whether a jury instruction is applicable to the facts of the case" is reviewed for an abuse of
discretion." People v McKinney. 258 Mich App 157, 163; 670 NW2d 254 (2003).
Discussion:
Mr. McCoy argued at trial that M Crim JI 4.4" Flight, Concealment, Escape or Attempted Escape" should
not have been provided to the jury because the facts did not support it, and further requested that M Crim JI 17.10
"Definition of a Dangerous Weapon" and 17.11 "Definition of Firearm-Gun, Revolver, Pistol" include the
definition of a shotgun in each of them. "Jury instructions must include all the elements of the charged offense
and must not exclude material issues, defenses, and theories if the evidence supports them." People v Canales.
243 Mich App 571, 574; 624 NW2d 439 (2000). A criminal defendant is only entitled to a jury instruction if the
evidence supports it. People v Riddle. 467 Mich 116,124; 649 NW2d 30 (2002). Mr. McCoy preserved this issue
for appellate review when he objected to the trial court providing M Crim JI 4.4 to the jury, and 17.10 and 17.11
without the definition of shotgun. (T, 761-766). After hearing arguments from the parties, the trial court overruled
Mr. McCoy's objections, and provided them as proposed to the jury. (T, 761-766).
A person cannot be deprived of life, liberty, or property without due process of law. US Const, Ams V,
XIV; Const 1963, Art 1, sec. 17; People v Bearss. 463 Mich 623, 629; 625 NW2d 10 (2001). "What process is
due in a particular proceeding depends upon the nature of the proceeding, the risks and costs involved, and the
private and governmental interests that might be affected." People v Pitts. 222 Mich App 260, 263; 564 NW2d
28

93 (1997). The Federal appellate courts review the charge to the jury as a whole to determine whether it fairly
and adequately submitted the issues and the law to the jury. United States v. Newcomb. 6 F 3d 1129,1132 (1993).
Furthermore, the Federal and Michigan Constitution’s guarantee that a defendant receives a fair trial and to
present a defense. US Const Ams V, VI, XIV; Mich Const 1963, Art 1, Sec 17, .20. Few rights are more
fundamental than that of an accused to present evidence in his or her own defense. Chambers v Mississippi. 410
US 284, 302; 93 S. CT 1038; 35 L Ed 2d 297 (1973). "Whether rooted directly in the Due Process Clause of the
Fourteenth Amendment or in the Compulsory Process or Confrontation clauses of the Sixth Amendment, the
Constitution guarantees criminal defendants a meaningful opportunity to present a complete defense." Holmes v
South Carolina, 547 US 319, 324; 126 S ct 1727; 164 L Ed 2d 503 (2006) (internal quotation marks and citations
omitted).
MCR 2.512(D)(2) requires that the Model Criminal Jury Instructions be used when they (1) are applicable,
(2) accurately state the applicable law, and (3) are requested by a party. People v Traver, 316 Mich App 588,
NW2d_ (2016) (Docket No. 325883); slip op at 5. Even though the trial court was not required to use the model
jury instructions, a defendant is still entitled "to have a properly instructed jury consider the evidence against
him." People v Mills. 450 Mich 61, 80-81; 537 NW2d 909 (1995). Jury instructions should be considered as a
whole when reviewed for error requiring reversal. People v Richardson. 490 Mich 115, 119; 803 NW2d 302
(2011). The trial court's instructions to the jury must include all elements for each offense charged. People v
Bartlett. 231 Mich App 139, 143; 585 NW2d 341 (1998).
The instructions also must not omit material issues, defenses, or theories that are supported by the evidence.
Id. "Even if somewhat imperfect, instructions do not create error if they fairly present to the jury the issues tried
and sufficiently protect defendant’s rights." Id. at 143-144. M Crim JI 4.4 Flight, Concealment, Escape or Attempted
Escape provides the following:

29

(1)
There has been some evidence that the defendant [tried to run away / tried to hide / ran away / hid] after
[the alleged crime / (he / she) was accused of the crime / the police arrested (him / her) /. the police tried to arrest
(him / her)].
(2)
This evidence does not prove guilt. A person may run or hide for innocent reasons, such as panic, mistake,
or fear. However, a person may also run or hide because of a consciousness of
You must decide whether the evidence is true5 and, if true, whether it shows that the defendant had a guilty
state of mind.

(3)

In this case, defense counsel argued at trial that since it only took about 18 minutes from the time of the
alleged offense until the time that Mr. McCoy was arrested, and he gave himself up without a struggle when the
police encountered him, the trial court when it provided M Crim JI 4.4 to the jury. Since Mr. McCoy did not
attempt to flee from the police once they confronted him, and was found how close to the crime scene, the
evidence did not support M Crim JI 4.4 being read to the jury. As a result, this Court must reverse Mr. McCoy's
conviction and remand for a new trial.
M Crim JI 17.10 "Definition of Dangerous Weapon" provides:
(1) A dangerous weapon is any object that is used in a way that is likely to cause serious physical injury or death.
(2) Some objects, such as guns or bombs, are dangerous because they are specifically designed to be dangerous. Other
objects are designed for peaceful purposes but may be used as dangerous weapons. The way an object is used or
intended to be used in an assault determines whether or not it is a dangerous weapon. If an object is used in a way
that is likely to cause serious physical injury or death, it is a dangerous weapon.
(3) You must decide from all of the facts and circumstances whether the evidence shows that the in question here was a
dangerous weapon.
M Crim JI 17.11 Definition of Firearm-Gun, Revolver, Pistol provides:
(1) A gun [revolver / pistol] is a firearm. A firearm includes any weapon which is designed to or may readily be
converted to expel a projectile by action of an explosive.
[(2) It does not matter whether or not the gun (revolver / pistol) was capable of firing a projectile or whether it
was loaded.]

30

\\m, Mr. MeC07vested tkfctketvial cewrt wMe ttedetiwfto* of
j*bo^kof (teabove \v15tfvct\Ows so
tuw$ ieteeawj gr^weris if ay* bewj pwswti* ttewptoMvds toi teamed vvkWaspWtyaapI*^ It. 6aty
Ms&<Jescl*M W(T-57(J'S7i) in'^'Sct'Estates-.Wit^kwf "tUatttunj tUtdppedes t}bea^sM.tf^vte« hewashed
abcvtikW^iWs Wa«e.tlie.(leWaKtsE>i"')iV'J^^W'ortV) GjulitaeteewaBafeeej bytf^py.M^itatwalCtfrtWWi
j^esb^fcl^ycwteMis tttte'w&WedafaStM ami Jwyftessof law wVmcV waA^ntsA gevefea\ »i a t\ev/^ua|-

wWrc^fcMiLfofoys Qmfifa

for & mevfri&l,

i\

ISSUE VII
The defendant is entitled to resentencing pursuant to the federal and Michigan constitutions.
U.S. Const. Amend V, VI, Mich Const. 1963 art 1 § 17, and 20. Since the trial Judge engaged
in impermissible judicial fact-finding when erroneously ruling that there were sufficient
facts to support the scoring of offense variable’s 3,4, and 5. Because the facts established at
trial did not support them beyond a reasonable doubt.
Standard of Review:
A defendant must be sentenced based on accurate information pursuant to the Federal and Michigan
Constitutions. United States Const. Amend VI, V, VI, XIV; Mich Const Art 1, Sec 17, 20; Townsend v. Burke.
334 US 736; 68 S. CT 1252; 92 L Ed 2d 1690 (1948); People v. Malkowski. 385 Mich 244 (1971). MCR 6.429
(A) states that, "[t]he court may correct an invalid sentence, but the court may not modify a valid sentence after
it has been imposed except as provided by law."
Defendant preserved this issue for appellate review when he presented objections that were heard at
sentencing, and argued that his sentencing guidelines were erroneously scored.
Discussion:
On December 5, 2017, the trial judge denied Mr. McCoy's motions which preserved this issue for appellate
review pursuant to MCR 6.311 and MCLA 769.34(10).
The issues in this case concern the proper interpretation and application of the statutory sentencing
guidelines, MCL 777.11 et seq., and the standard to be applied to score them, both of which are legal questions
that this Court reviews de novo. People v Morson. 471 Mich 248, 255; 685 NW2d 203 (2004). "Under the
sentencing guidelines, the circuit court's factual determinations are reviewed for clear error and must be
supported by a preponderance of the evidence." People v Hardy. 494 Mich 430, 438; 835 NW2d 340 (2013)
(citations omitted). "Whether the facts, as found, are adequate to satisfy the scoring conditions prescribed by
statute, i.e., the application of the facts to the law, is a question of statutory interpretation, which an appellate
court reviews de novo." Id.
32

Recently, the Michigan Supreme Court in People v. Lockridge. 498 Mich 358; 870 NW 2d 502 (2015),
held that Michigan’s statutory sentencing guidelines scheme violates the U.S. Constitution under the Sixth and
Fourteenth Amendments. The Court held that the sentencing guidelines are no longer binding and mandatory
on the sentencing judge, and the sentences imposed by the trial courts will be reviewed for "reasonableness.'’
The Court maintained that the sentencing court must determine the applicable sentencing guidelines range and
take them into account when imposing a sentence. Id at 2, 28.
Mr. McCoy should be entitled to have his information corrected and sentence reconsidered because the
trial court engaged in impermissible judicial fact-finding to score the sentencing guidelines, contrary to Alleyne
v United States. 570 U.S; 133 S Ct2151% L Ed 2d 314 (2013); Lockridge, supra. In Alleyne, 133 S Ct at 2163,
the United States Supreme Court held that because "mandatory minimum sentences increase the penalty for a
crime," any fact that increases the mandatory minimum is an "element” that must "be submitted to the jury and
found beyond a reasonable doubt." In Lockridge, 498 Mich at 364, our Supreme Court held that Michigan's
sentencing guidelines were constitutionally deficient under Alleyne to the extent that "the guidelines require
judicial fact-findings beyond facts admitted by the defendant or found by the jury to score offense variables
(OVs) that mandatorily increase the floor of the guidelines minimum sentence range, i.e. the 'mandatory
minimum' sentence under Alleyne." To remedy the constitutional violation, the Court severed MCL 769.34(2)
to the extent that it makes the sentencing guidelines, as scored based on facts beyond those admitted by the
defendant or found by the jury, mandatory. Id. Very recently, in People v. Steanhouse. 500 Mich 453, 461; 902
NW 2d 327 (2017), the Michigan Supreme Court reaffirmed that the sentencing guidelines are advisory only.
The Court explained that a sentencing court must still score the guidelines to determine the applicable'
guidelines. The Court held that the sentencing guidelines are no longer binding and mandatory on the sentencing
judge, and the sentences imposed by the trial courts will be reviewed for "reasonableness", but a guidelines
range calculated in violation Alleyne is now advisory only. Id at 365. The Court in Lockridge held that:
33

When a defendant's sentence is calculated using a guidelines minimum sentence range in
which OVS have been scored on the basis of facts not admitted by the defendant or found beyond
a reasonable doubt by the jury, the sentencing court may exercise its discretion to depart from that
guidelines range without articulating substantial and compelling reasons for doing so. A sentence
that departs from the applicable guidelines range will be reviewed by an appellate court for
reasonableness. Booker, 543 U.S. at 261, 125 S.Ct. 738. Resentencing will be required when a
sentence is determined to be unreasonable. Because sentencing courts will hereafter not be bound
by the applicable sentencing guidelines are, this remedy cures the Sixth Amendment flaw in our
guidelines scheme .by removing the unconstitutional constraint on the court's discretion.
Sentencing courts must, however, continue to consult the applicable guidelines range and take it
into account when imposing a sentence. Further, sentencing courts must justify the sentence
imposed in order to facilitate appellate review. People v. Coles, 417 Mich. 523, 549, 339 N.W.2d
440 (1983), in on other grounds by People v. Milboum, 435 Mich. 630, 644,461 N.W.2d 1 (1990).
Lockridge, supra at 392; see United States v. Booker, 543 U.S. 220, 233, 125 S.Ct 738, 160
L.Ed.2d 621 (2005).
Under the principle of proportionality standard, a sentence must be "proportionate to the seriousness of
the circumstances surrounding the offense and the offender." Milboum, 435 Mich at 636. Accordingly, the
sentencing court must impose a sentence that takes "into account the nature of the offense and the background
of the offender." Id. at 651. Generally, sentences falling within the minimum sentencing guidelines range are
presumptively proportionate. People v Cotton. 209 Mich App 82, 85; 530 NW2d 495 (1995). Factors that may
be considered under the principle of proportionality standard include, but are not limited to: (1) the seriousness
of the offense; (2) factors that were inadequately considered by the guidelines; and (3) factors not considered
by the guidelines, such as the relationship between the victim and the aggressor, the defendant's misconduct
while in custody, the defendant's expressions of remorse, and the defendant's potential for rehabilitation.
fPeople v Lawhom. 320 Mich App 194,207; NW2d _ (2017) (citation and quotation marks omitted)]. The Court
in Milboum held that under "unusual circumstances," a sentence within the guidelines range may "be
disproportionately severe or lenient," which would result in a sentence that violates the principle of
proportionality even though it is within the guidelines range. Milboum, 43 5 Mich at 661.

34

Mr. McCoy asserted at sentencing that OV 3, Physical Injury to Victim” was erroneously scored 25 points.
The probation department scored Mr. McCoy 25 points for life threatening or permanent incapacitating injury
occurred to a victim. The evidence at trial indicated that complainant Bucy went to the hospital after he was shot
and was examined by Dr. Onazian, who lacked personal recollection and relied on the medical records. Mr.
McCoy argued at sentencing that he should have only been scored 10 points for OV 3 because only bodily injury
requiring medical treatment occurred to a victim, complainant Bucy, under MCLA 777.33(l)(d). Mr. McCoy
asserted at sentencing that when complainant Bucy was shot in the torso and shoulder area, it only showed that
bodily injury occurred that was not life threatening. As a result, the trial court erred by scoring OV 3 at 25 points
rather than 10 points.
Mr. McCoy asserts that OV 4, "Degree of Psychological Harm” was erroneously scored 10 points under
MCLA 777.34(2) where the victim allegedly required professional treatment, in this case complainant Bucy
who claimed that he suffered from post-traumatic stress disorder. At sentencing, defense counsel argued that
complainant Bucy did not produce any documentation to support the claim, and he did not report that he actually
received any treatment since he submitted his victim impact statement on June 12, 2016. (See PSIR, Appendix).
MCLA 777.34(1) (a).
The trial court improperly scores OV 4 if there is no evidence of any psychological injury to the victim,
because the trial court may not assume that an injury occurred. People v Lockett. 295 Mich App 165, 183; 814
NW2d 295 (2012). The trial court may not assess points under OV 4 on the basis of its belief that anyone in the
victim's position would have suffered a psychological injury. Id. The trial judge erroneously scored OV 4 at 10
points when it should have been scored at zero points, since there was insufficient evidence to score it.
The probation department scored OV 5 at 15 points because complainant Bucy claimed that his children
suffered from post-traumatic stress disorder. (PSIR p. 3). At trial, the evidence revealed that the children were
35

outside of the house at the time of the shooting, and there was no evidence other than complainant Bucy's claim
that they had suffered any emotional trauma. Although whether they had received treatment is not determinative,
some reliable evidence was not presented to the trial court to support the score. Since no evidence was produced,
the trial court erred by scoring OV 5 at 15 points. Mr. McCoy contended at sentencing that OV 5, "Psychological
Injury to Member of a Victim's Family" under MCLA 777.35, was erroneously scored 15 points where it should
have been scored zero points. Mr. McCoy asserted at sentencing that there was no evidence indicating that any
member of the victim's family intended to receive professional’ treatment in relation to the incident or required
professional treatment because of the incident. See People v Portellos, 298 Mich App 431, 449; 827 NW2d 725
(2012) (affirming the trial court's refusal to assess points for OV 5 when there was no evidence that members of
the victim's family intended to receive treatment).
Since the trial court sentenced Mr. McCoy based on inaccurately scored sentencing guidelines, his
information must be corrected and his sentence reconsidered. Pursuant to MCR 2.613(A), a sentence must be
consistent with "substantial justice." Our Supreme Court found in People v Francisco. 474 Mich 82, 88, 90-91
(2006), that "it is difficult to imagine something 'more inconsistent with substantial justice' than requiring a
defendant to serve a sentence that is based upon inaccurate information." Id. at *91, n6. As a result, the Court
held that a defendant must be resentenced when he is sentenced under mis-scored and inflated guidelines even if
the minimum sentence imposed falls within both the mis-scored and the lower, correctly scored, guidelines. In
Francisco, the sentencing court imposed a minimum sentence of 102 months where the guidelines range was 87217 months under an inaccurate scoring, and 78-195 months under an accurate scoring. The trial court's 102month sentence was well within both ranges, but the Michigan Supreme Court concluded that resentencing was
required because the defendant was given "a sentence which stands differently in relationship to the correct
guidelines range than may have been the trial court's intention." Id. at 91-92, 10.
As a result, the trial court sentenced Mr. McCoy based on impermissible judicial fact finding contrary to
the federal and state constitutions, which requires that this Court order a resentencing based on accurately scored
36

sentencing guidelines. When the trial court sentenced Mr. McCoy, the sentencing guidelines were erroneously
scored at 27040-900 months’ incarceration for assault with intent to commit murder. (See SIR, attached;
Sentencing grid for Class A offenses, MCLA 777. 62, F-IV range). With the corrections if they were applied,
Mr. McCoy's range would have been reduced to 171 -to- 570 months’ incarceration (F-IV range, Class A
offense). Even though the trial judge's sentences would still be within the sentencing guidelines with his
minimum sentence of 300 months’ incarceration, his sentences were still nonetheless invalid due to the
inaccurate scoring. As a result, this Court must order a correction of the Sentencing Information Report and
reconsideration of his sentence.
As a result, this Court must reverse the trial court's denial of Mr. McCoy's motion to re score the sentencing
guidelines pursuant to United States v. Crosby. 397 F 3d 103 (2005) because Lockridge, supra held that the
scoring of the sentencing guidelines based on facts not found by a judge or jury proven beyond a reasonable
doubt or admitted by the defendant violates the Sixth Amendment. The Court in Lockridge held that:
Second, we consider the converse: cases in which facts admitted by a defendant or found by the jury
verdict were insufficient to assess the minimum number of OV points necessary for the defendant's score
to fall in the cell of the sentencing grid under which he or she was sentenced. In those cases, it is clear from
our previous analysis that an unconstitutional constraint actually impaired the defendant’s Sixth
Amendment right. The question then turns to which of these defendants is entitled to relief, i.e., which can
show plain error.
We conclude that all defendants (1) who can demonstrate that their guidelines minimum
sentence range was actually constrained by the violation of the Sixth Amendment and (2)
whose sentences were not subject to an upward departure can establish a threshold showing
of the potential for plain error sufficient to warrant a remand to the trial court for further
inquiry. We reach this conclusion in part on the basis of our agreement with the following
analysis from United States v. Crosby, 397 F.3d 103, 117-118 (C.A.2, 2005):
In cases such as this one that involve a minimum sentence that is an upward departure, a
defendant necessarily cannot show plain error because the sentencing court has already clearly
exercised its discretion to impose a harsher sentence than allowed by the guidelines and expressed
37

its reasons for doing so on the record. It defies logic that the court in those circumstances would
impose a lesser sentence had it been aware that the guidelines were merely advisory. Thus, we
conclude that as a matter of law, a defendant receiving a sentence that is an upward departure
cannot show prejudice and therefore cannot establish plain error. Lockridge, supra 395-396

Since the trial judge's sentences were not within the accurately scored sentencing guidelines was
significantly different depending on how the offense variables are rescored, this Court must order that Mr.
McCoy's information be corrected and/or order a hearing to review the standard applied. At the hearing, this
Court should order that the trial judge determine whether the offense variables and sentences were based on facts
not supported by Mr. McCoy's trial evidence or facts proven beyond a reasonable doubt. This Court should
further order that the filial judge must examine whether his sentence would have been materially different if the
sentencing guidelines were not inflated and hold a full resentencing hearing. See Lockridge, supra at 395-399.
Therefore, this Court must remand and order that Mr. McCoy's information be corrected, and base the
scoring of the offense variables, particularly OV 3, 4 and 5, only on evidence established at trial or shown
beyond a reasonable doubt, and order that his sentence be reconsidered applying the reasonableness standard.

38

ISSUE VIII
Mr. McCoy was denied due process of law, when he was not allowed to be present during the
proceeding of his arraignment, or enter of plea. In order for the waiver of any constitutional
and procedural right to be valid, it must be a knowing, and voluntarily waiver of them
through an intentional relinquishment.
Standard of Review:
The Supreme Court held that a Defendant has a due process right to be present at a proceeding, “whenever
his presence has a relation reasonably substantial to the fullness of his opportunity to defend against the charge...,
[The] presence of a Defendant is a condition of due process to the extent that a fair and just hearing would be
thwarted by his absence, and to that extent only.” United States v. Gagnon. 405 U.S. 522, 526 (1985).
Reversal is mandated where the reviewing court has a firm conviction that a mistake has been made. People
v Walker. supra: People v McGillen #1. 392 Mich 251: 220 NW2d 677 ('1974').
Discussion:
At the arraignment in the circuit court, the information must be read to the defendant unless expressly
waived by him or counsel. The prosecutor required to give a copy of the information, and the court must ask him
what plea he desires. GCR 1963, 785.5(1); GCR 1963, 785.5(2), states;
“The waiver of the arraignment must be by written statement signed by the defendant and his
lawyer Acknowledging that the defendant has received a copy of the information.” Because the
waiver of the arraignment cannot become effective until Defendant has read the information or
had it explained to him. People v. Swayne, 139 Mich App. 258, 262-265, (1984).
Therefore, the supreme court held that GCR 1963, 785, be interpreted in a similarly rigid manner. Guilty plea
cases, 395 Mich 96 (975). This rule requires that a Defendant be given a copy of the information by the prosecutor
at the arraignment and is only adequately complied with when the prosecutor hands the copy to the defendants’
attorney in the presence of the defendant GCR 1963, 785.5(1). People v. Spence. 69 Mich App. 688, 670 (1976).
In resolving the issue, we are guided by principles of statutory construction in determining the supreme courts
intent in promulgating rules of practice and procedure Issa v. Garlinghouse. 133 Mich. 579, 581 (1984). There
39

can be no doubt that the supreme court is cognizant of doctrines of statutory construction and that such doctrines
advanced the court’s intention in adopting the general court rules. People v. Lange. 105 Mich. App. 263, 266-267
(1981). It is general principle statutory construction that when a statute is unambiguous as its face, interpretation
and construction of its terms all unnecessarily. Sneath v. Popiolek. 13 5 Mich App 17,23 (1984). Here, the court
rule is unambiguous and should be applied as written. A person cannot be deprived of life, liberty, or property
without due process of law. U.S. Const. Ams V, XIV; Const 1963 Art 1 sec 17. People v. Bearss, 463 Mich 623
(2001). “What process is due'in particular proceedings depends upon the nature of the proceeding, the risks’ and
cost involved and the private and governmental interest that might be affected. People v. Pitts. 222 Mich. App.
260, 263 (1997). It is a fundamental due process right that a defendant knows the nature of the accusation being
made against him. People v. Ora Jones. 345 Mich 379, 388 (1975).
This right is guaranteed under the federal and state constitutions. Const Ams V, VI, XIV; Mich Const. 1963
Art 1, sec 20; MCL 767.45; MSA 28.985. A defendant has a constitutional right to adequate notice of the nature
and cause against him. People v. Darden. 230 Mich. App. 597, 600 (1988). Informing a defendant of the nature
and cause of the accusation being made is the most important function of the arraignment People v. Killebrew. 16
Mich. App. 324, 327(1969).
A. Waiver and forfeiture are distinct doctrines.
“Waiver has been defined as the intentional relinquishment or abandonment of a known right.” People v
Carter. 462 Mich 206, 215; 612 NW2d 144 (2000), quoting People v Cannes 460 Mich 750, 762-63 n 7; 597
NW2d 130 (1999), quoting United States v Piano. 507 US 725, 733 (1993) (internal quotation marks excluded).
“When defense counsel clearly expresses satisfaction with a trial court's decision, counsel’s action will be deemed
to constitute a waiver.” People v Kowalski. 489 Mich 488, 503; 803 NW2d 200 (2011) (defendant waived error
in omitting actus.reus element of offense from jury instruction where his attorney “explicitly and repeatedly
approved the instruction.”). “One who waives his rights under a rule may not then seek appellate review of a
40

claimed deprivation of those rights, for his waiver has extinguished any error.” Id. at 215, quoting United States
v Griffin. 84 F3d 912, 924 (CA 7, 1996).
As the Court explained in Carter, waiver “differs from forfeiture, which has been explained as ‘the failure
to make the timely assertion of a right.

9

99

Id. at 215, quoting Cannes, 462 Mich at 762-63. Rights or errors that

have been forfeited are reviewed under the plain error standard of review. Id. at 216, citing Griffin, 84 F3d at 92426. “If the statute's language is clear and unambiguous, we assume that the Legislature intended its plain
meaning and we enforce the statute as written.” People v. Weeder. 469 Mich 493, 497; 674 NW2d 372 (2004).
MCL 780.767(4) is not ambiguous. A “totality of the circumstances” test is employed in evaluating voluntariness.
See e.g. Brown v Illinois. 422 US 590; 95 S.Ct. 2254; 45 LEd2d 416 (1975): People v Cipriano. 431 Mich 315;
429 NW2d 781 (1988V
A criminal defendant has a due process right to be present during every stage of his trial, including
specifically the giving of any supplemental instructions to the jury. US Const Amends VI. XIV; Illinois v Allen.
397 US 337. 338: 90 S Ct 1057; 25 L Ed 2d 353 (T970) (“One of the most basic of the rights guaranteed by the
Confrontation Clause is the accused’s right to be present in the courtroom at every stage of his trial”).
Moreover, the right to be present is a personal right that cannot be waived by counsel. See, e.g., Johnson v
Zerbst. 304 US 458.464; 58 S.Ct 1019: 82 L Ed 1461 (19371: People v Montgomery, 64 Mich App 101. 103: 235
NW2d 75 (1975V
Since absence of counsel at a critical stage is a structural error, defendant is entitled to an automatic reversal
and new trial. United States v. Cronic. 466 US 648, 659 n25; 104 S. Ct 2039; 80 L. Ed 2d 657 (1984). The Court
has uniformly found constitutional error without any showing of prejudice when counsel was either total absent,
or prevented form assisting the accused during a critical stage of the proceedings. According to People v. Russell.
471 Mich 182, 194 n29; 684 NW 2d 745 (2004). (“the complete denial of counsel at a critical stage of a criminal
proceedings is a structural error that renders the result unreliable thus requiring automatic reversal”).
41
\

The record of arraignment on information form, indicates that the defendant and his attorney formally
waives the formal arraignment, but the purpose of the information and the waiver must be explained to the
defendant and the document must be signed by the defendant and his attorney indicating the waiver is in
accordance with GCR 1963, 785.5 (2). Peovle v. Johnson, 112 Mich. App. 41, 52 (1981). Here, Mr. McCoy was
not given the opportunity to be present at his arraignment and was never consulted by his attorney about the
waiver of his arraignment, a thorough review of the record of the waiver of arraignment proceeding will disclose
that Mr. McCoy’s attorney was not even present nor was Mr. McCoy present during the preceding the arraignment
the information was amended and filed on 8/31/16 with the circuit court and the arraignment was scheduled on
9/12/16, which Mr. McCoy was prejudiced by not being able to file the appropriate motion to Quash the charging
information being that the judge allowed the possession of cocaine to be set for trial when the District court never
had a lab report to prove the drugs were actually drugs. Therefore, the court must revers Mr. McCoy’s’ conviction
and remand it to the court for a new trial.

CONCLUSION AND REASONS FOR GRANTING PETITION
Mr. McCoy requests that this Honorable Court grant his Petition for Certiorari for the reasons stated in
issues I-VIII above, because the Michigan state court's adjudication of the above claims “resulted in a decision
that was contrary to, or involved an unreasonable application of, clearly established Federal law, as determined
by the Supreme Court of the United States”, and/or “resulted in a decision that was based on an unreasonable
determination of the facts in light of the evidence presented in the State court proceeding”, as detailed above.

Respectfully submitted,
9

By:/s/
Date;

,2021
Deonte Kinwan McCoy #382437
In Pro~Per
42

Michigan Court of Appeals Opinion
October 1, 2019

43

